No. 20-1148

In the Supreme Court of the United States
Robert M. Sellers,

Petitioner,
v.
Denis R. McDonough,
Secretary of Veterans Affairs,

Respondent.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I declare that the Brief Amicus
Curiae of Military-Veterans Advocacy Supporting Petitioner filed on behalf of

Amicus Curiae Military-Veterans Advocacy, Inc. contains 4,615 words, excluding
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 23rd day of March 2021.

/s/ Michael E. Joffre

MICHAEL E. JOFFRE
STERNE KESSLER GOLDSTEIN & FOX, PLLC
110 0 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
202.371.2600

Counsel for Amicus Curiae
Military-Veterans Advocacy, Inc.

